      Department of Homeland Security





                 Capping Report: FY 2011 FEMA
            Public Assistance and Hazard Mitigation
                    Grant and Subgrant Audits




OIG-12-74                                             April 2012

                                                                      Office ofInspector General

                                                                      U.S. Department of Homeland
                                                                      Security
                                                                      Washington, DC 20528



                                                                      Homeland
                                                                      Security
                                                                 APR 1 3 2012
MEMORANDUM FOR:              William L. Carwile III
                                                         sponse and Recovery
                                                         mentAgency

FROM:
                             Assistant Inspector General
                             Office of Emergency Management Oversight

SUBJECT:                     Capping Report: FY 2011 FEMA Public Assistance and
                             Hazard Mitigation Grant and Subgrant Audits

This report summarizes the results of Public Assistance (P A) program and Hazard Mitigation
Grant Program (HMGP) grant and sub grant audits performed during fiscal year (FY) 2011. We
reviewed audit findings and recommendations made to Federal Emergency Management Agency
(FEMA) officials as they related to P A and HMGP program funds awarded to state, local, and
tribal governments and eligible nonprofit organizations. The objectives of this capping report
were to identify frequently reported audit findings and quantify the financial impact of these
findings.

We discussed this report with representatives from FEMA's Office ofthe Associate Administrator,
Response and Recovery, and Office ofthe Assistant Administrator, Recovery, on February 24,
2011 . Although our conclusion offers FEMA several suggestions for improving grant
administration of its PA and HMGP programs, this report contains no formal recommendations.
Therefore, we consider this report closed and require no further actions from FEMA.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Should you have questions concerning this report, please call me, or your staff may contact
Tonda Hadley at (214) 436-5200.

Attachment
Background
In FY 2011, we issued 58 audit reports on grantees and subgrantees awarded FEMA PA and
HMGP funds between June 2001 and October 2008 as a result of 30 presidentially declared
disasters in 13 states and 1 U.S. territory. 1 The objective of those 58 audits was to determine
whether the grantees and subgrantees accounted for and expended FEMA funds according to
federal regulations and FEMA guidelines. Our HMGP audit objectives also included
determining whether the projects met FEMA eligibility requirements and whether project
management complied with applicable regulations and guidelines. Appendix A, FEMA Public
Assistance and Hazard Mitigation Grant and Subgrant Audit Reports Issued in FY 2011, lists the
58 audit reports and provides a link to our web page, where copies can be obtained.

Our PA and HMGP audits covered subgrantees that had (1) completed all work approved by
FEMA and reported final costs to the grantee that in turn had requested final FEMA payment,
(2) completed all work and reported final costs to the grantee that had not yet requested final
FEMA payment, (3) completed selected projects but had not reported final project costs to the
grantee, and (4) projects in progress or projects that had not yet started. The subgrantees
received awards totaling $1.72 billion for debris removal; emergency protective measures; or
permanent repair, restoration, and replacement of damaged facilities. We audited $1.22 billion
of the $1.72 billion, or 71% of the amounts awarded to the recipients audited.

We conducted this performance audit and the 58 performance audits discussed in this report
under the authority of the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and perform
audits to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based upon our audit objectives. We believe the evidence obtained during this
audit and during the 58 audits discussed in this report provided a reasonable basis for our
findings and conclusions based upon our audit objectives. We conducted these audits according
to the statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.
Our review included analyses of (1) findings and recommendations in our FY 2011 grant audit
reports and (2) applicable federal regulations, Office of Management and Budget grant and audit
guidance, and FEMA PA and HMGP guidance applicable to the conditions noted.

Results of Review
Of the 58 audit reports we issued in FY 2011, 54 reports contained 220 recommendations
resulting in potential monetary benefits of $336.9 million.2 This amount included $307.8 million
in project costs questioned as ineligible or unsupported that should be disallowed and
$29.1 million in funds that were unused or uncollected that should be put to better use. The
$336.9 million in potential monetary benefits represents 28% of the $1.22 billion we audited,




1
  Of the 58 audits, 34 were audits of subgrantees that suffered damage from hurricanes Katrina, Rita, and Wilma 

(August through October 2005).

2
  Four FY 2011 audit reports had no findings or reportable conditions.




                                                         2

compared with 13% in FY 2010 and 15% in FY 2009. 3 This year’s sharp increase in potential
monetary benefits is due in large part to significant contracting problems that we identified. As
reported in our two previous capping reports, we continue to find problems with grant
management and accounting, ineligible and unsupported costs, and noncompliance with federal
contracting requirements.

As discussed in this report, ineligible costs occurred for numerous reasons. However,
unsupported costs usually occurred because subgrantees did not adequately record their own
labor and equipment hours or did not obtain support for hours worked by contractors. Also, as
we identified last year, subgrantees continued to have problems complying with federal
contracting requirements.

Table 1 categorizes our audit findings and recommendations into four broad types.

Table 1. Types of Findings
                                                       Number of                   Amounts
                                                        resulting                  questioned in
                                                    recommendations                 our reports
          A. Ineligible Work or Costs 	                         116                $ 224,518,202
          B.	 Unsupported Costs                                  24                   83,286,921
          C. Funds Put to Better Use	                            26                   29,085,541
          D. Grants Management and
              Administrative Issues	                                54                         0
                     Totals                                        220              $336,890,664


A. 	Ineligible Work or Costs

As illustrated in table 2, we considered nearly $224.52 million in costs claimed or to be claimed
by the subgrantees as ineligible for FEMA reimbursement.

    Table 2: Subtypes of Ineligible Work or Costs
                                                 Number of                                Amounts
                                                  resulting                             questioned in
                                             recommendations                             our reports
     1. Contracting Practices                              17                           $131,759,330
     2. Contract Monitoring                                19                              5,196,768
     3. Other Ineligible Work or Costs                     80                             87,562,104
                    Totals                                116                           $224,518,202

1.	 Contracting Practices. We reported 18 instances in which subgrantees were awarded a total
    of $132,618,616 for contracts that did not comply with federal procurement regulations. Of
    this amount, we questioned $131,759,330 in 17 recommendations, or all but $859,286.

3
  Our FY 2010 capping report reported $165 million in potential monetary benefits out of $1.23 billion in PA
funds audited (Report DD-11-17). Our FY 2009 capping report reported $138 million in potential monetary
benefits out of $933 million in PA funds audited (Report DS-11-01).



                                                         3

       Subgrantee contracting practices that do not comply with federal procurement regulations
       result in high-risk contracts that potentially cost taxpayers millions of dollars in excessive
       costs and often do not provide full and open competition to all qualified bidders, including
       small firms and women- and minority-owned businesses. In addition, full and open
       competition helps to discourage and prevent favoritism, collusion, fraud, waste, and abuse.

       We considered the exigencies that often arise early after a disaster occurs, and as a general
       rule did not question contracting practices or costs associated with those exigencies.
       However, subgrantee noncompliance after bona fide exigencies no longer exist remains a
       major concern to us. For example, in Audit Report DD-11-05, Chambers County, Texas, we
       identified $40.5 million in contract costs for which the subgrantee did not provide full and
       open competition or allow market conditions to establish reasonable prices.

       Although FEMA has remedies available when a grantee or subgrantee does not comply with
       applicable statutes or regulations, FEMA often does not hold grantees and subgrantees
       adequately accountable for noncompliance with procurement regulations. FEMA seldom
       disallows improper contract costs, citing that it has the authority to reimburse subgrantees for
       the reasonable cost of eligible work. Consequently, grantees and subgrantees have little
       incentive to follow procurement regulations. For example, as of February 1, 2012, of the 17
       recommendations related to noncompliance with procurement regulations—

           •	 FEMA agreed to disallow costs we questioned in only two recommendations totaling
              $4,889,281, or less than 4% of the total $131,759,330 we questioned;
           •	 FEMA disagreed with our questioned costs in nine recommendations totaling
              $83,533,683, or 63% of the total; and
           •	 FEMA had not responded to six recommendations totaling $43,336,366, or 33% of
              the total.

       Under certain conditions, federal regulations allow agencies to grant exceptions to federal
       administrative requirements for grants. 4 However, the Office of Management and Budget
       (OMB) allows exceptions only on a case-by-case basis. FEMA codified OMB’s Uniform
       Administrative Requirements for Grants and Cooperative Agreements to State and Local
       Governments at 44 CFR 13, which states in part that federal agencies may authorize
       exceptions to the administrative requirements on a case-by-case basis, but that only OMB
       may authorize exceptions for classes of grants or grantees (44 CFR 13.6). Further, OMB
       regulatory guidance entitled Uniform Administrative Requirements for Grants and
       Agreements with Institutions of Higher Education, Hospitals, and Other Non-profit
       Organizations includes similar provisions, but adds, “exceptions from the requirements of
       this part shall be permitted only in unusual circumstances.” (2 CFR 215.4)

       Clearly, OMB’s intent was not for federal agencies to routinely make exceptions to the
       procurement standards in the administrative requirements for grants. Accordingly, we do not
       believe it is prudent to waive federal procurement standards unless lives and property are at
       stake, because the goals of proper contracting relate to more than just reasonable costs. Once

4
    See 44 CFR Part 13, sections 13.6(b) and (c) and 13.43(a).



                                                           4

      the roads are clear, power is restored, and the danger is over, cities, counties, and other
      entities should follow federal regulations or face losing federal funding.

  2.	 Contract Monitoring. We reported 19 instances of inadequate subgrantee contract
      monitoring relating to $5,196,768 in contract costs, all of which we questioned. Subgrantees
      claimed costs when their contractors (1) billed at rates higher than those specified in the
      contracts, (2) did not perform work specified in contracts, (3) performed and billed work not
      specified in contracts, (4) included billing errors and duplicate charges in their invoices, and
      (5) charged unreasonable contract costs. For example, in Audit Report DD-11-20, FEMA
      Public Assistance Grant Funds Awarded to Calcasieu Parish School Board, Lake Charles,
      Louisiana, we identified $114,983 in claimed costs outside the authorized scope of the grant.

      Inadequate subgrantee contract monitoring can result in FEMA disbursements that are not fair
      and reasonable. Without increased emphasis on contract monitoring, these conditions will
      continue. Also, grantees should determine the reasonableness of contractor costs claimed by
      subgrantees before seeking reimbursement from FEMA on behalf of those subgrantees.

  3.	 Other Ineligible Work or Costs. Table 3 lists other ineligible work we reported and project
      charges we questioned in FY 2011.

      Table 3: Other Ineligible Work or Costs
                                                              Number of                 Amounts
                                                               resulting              questioned in
                                                           recommendations             our reports
Did not purchase insurance                                                2              $31,473,011
Insurance proceeds not applied/allocated correctly                       11               15,339,068
Ineligible force account labor and equipment                             10                 8,733,944
Ineligible debris removal charges                                         3                 7,931,155
Excessive or unreasonable costs                                          14                 6,066,953
Duplicate charges                                                         8                 5,912,618
Outside FEMA-approved scope                                               7                 4,363,114
Other federal agency funding available                                    3                 3,444,296
Not legal responsibility of subgrantee                                    3                 2,253,686
Miscellaneous ineligible charges                                          7                 1,174,130
Non-disaster-related charges                                              6                   649,945
Administrative allowance/overhead                                         3                   118,161
Salvage proceeds/credits                                                  3                   102,023
                       Totals                                            80              $87,562,104

  More than half of the questioned costs in this category resulted from subgrantees not purchasing
  required insurance and from FEMA not applying insurance proceeds to reduce grant funding.
  For example, in Audit Report DD-11-15, FEMA Public Assistance Grant Funds Awarded to
  Saint Mary’s Academy, New Orleans, Louisiana, we pointed out that the subgrantee did not
  obtain adequate insurance for future flood losses. Specifically, we reported that the Saint Mary’s
  Academy maintained only a $1 million flood insurance policy to cover a campus that received
  $33.7 million in FEMA reimbursement for flood damage. Federal regulations require applicants




                                                     5

to obtain and maintain flood insurance as a condition of receiving federal assistance. In another
example, in Audit Report DA-11-19, City of Vero Beach, Florida – Disaster Activities Related to
Hurricane Frances, the City’s claim included $2.1 million of losses for which FEMA had not
applied insurance proceeds to reduce grant funding.

We also reported more than $8 million of ineligible force account labor and equipment. Force
account charges are reimbursable costs that subgrantees incur using their own employees and
equipment in recovery activities. For example, in Audit Report DS-11-06, California
Department of Forestry and Fire Protection, we reported that the subgrantee claimed labor hours
valued at $7,823,339, which exceeded the maximum claimable amount under FEMA’s policy
regarding the reimbursement for labor costs associated with emergency work.

We also identified problems with ineligible debris removal charges, excessive or unreasonable
costs, duplicate charges, work outside the FEMA-approved scope of work, costs that were the
responsibility of other federal agencies, and other less significant grant problems. These findings
were generally caused by the subgrantees’ inadequate knowledge of federal regulations and
FEMA’s policies and guidelines. For example, in Audit Report DD-11-13, City of Austin, Texas,
we reported that the subgrantee did not use the correct data assumptions in calculating the
benefit-to-cost ratio for an HMGP project. As a result, the $596,150 project was ineligible
because it did not meet the required benefit-to-cost ratio of one or greater.

B. Unsupported Costs

Our FY 2011 audits reported 24 instances in which subgrantees did not adequately support costs
claimed or to be claimed. Questioned costs totaled $83.3 million. For example, in Audit Report
DD-11-12, Xavier University of Louisiana, we reported that Xavier could not provide supporting
documentation on a project-by-project basis. Therefore, we questioned the entire amount of the
grant—$25.7 million—as unsupported costs.

Unsupported costs resulted because subgrantees (1) had not established fiscal and accounting
procedures that would allow us to trace expenditures to confirm that funds were used according
to applicable laws, regulations, and FEMA policy or (2) did not maintain accounting records that
were supported by source documents such as canceled checks, paid bills, and contracts. Further,
the grantee did not always verify that costs claimed by its subgrantees met the standards for
financial management or ensure that its subgrantees were aware of and followed the retention
and access requirements for records.

C. Funds Put to Better Use

We reported 26 instances totaling $29.1 million in which FEMA funding could be put to better
use if unneeded project funding was deobligated and interest earned on FEMA funds was
collected.

We reported 25 instances in which subgrantees no longer needed project funding and
recommended that a total of $29.1 million in unneeded funding be deobligated. For example, in
Audit Report DS-11-11, FEMA Public Assistance Funds Awarded to City of Petaluma,




                                                6

California, we identified $1,168,729 in funds not used for permanent work that should be
deobligated and put to better use. Also, in Audit Report DD-11-08, City of Slidell, Louisiana, we
noted that FEMA should collect a total of $15,362 in interest earned by the subgrantee on
$397,737 in FEMA funds that the City obtained from FEMA and placed in an interest-bearing
account. Interest accruing on federal funds belongs to the federal government and, as such, must
be remitted to FEMA.

Deobligating unneeded funds sooner would (1) release funding to cover cost overruns on other
projects associated with the disaster, (2) help close out the subgrantee’s PA application because
projects would be settled throughout the life of the application, rather than after all work was
completed, (3) provide a more accurate status of program costs for a disaster, and (4) be consistent
with appropriation law that requires obligations in FEMA’s accounting system to be supported
by bona fide needs. Grantees can improve their monitoring efforts by ensuring that unneeded
funds are identified and returned to FEMA as soon as practicable after projects are completed. 5

D. Grants Management and Administrative Issues

Federal regulations require states, as grantees, to (1) ensure that subgrantees (such as cities,
school districts, etc.) are aware of requirements imposed on them by federal regulations and
(2) manage the day-to-day operations of subgrant activity and monitor subgrant activity to ensure
compliance with applicable federal requirements. 6 Our reports included 54 grants management
and administrative recommendations covering project accounting, general grants management,
contracting practices, contract billings, and project costs.

We reported 13 instances of improper project accounting in which subgrantees did not account
for disaster expenditures on a project-by-project basis. Failure to perform project-by-project
accounting increases the risk of duplicating disaster expenditures among projects.

We reported 16 instances in which grantee management could be improved. For example, in
some instances, grantees (1) did not have procedures in place to ensure that cash advances to
subgrantees were expended timely and excess funds were recovered promptly, (2) did not have a
documented or standard payment processing policy or needed to strengthen controls to prevent
overpayments, (3) did not have procedures in place to follow up on material deficiencies reported
in Single Audits, (4) were unaware of significant budget and scope increases, or (5) did not
adequately monitor and report subgrantee program performance.

Federal regulations establish uniform administrative rules for grants and procedures for PA and
HMGP project administration. These rules and procedures require that grantees and subgrantees
have fiscal controls, accounting procedures, and project administration procedures that provide
FEMA assurance that (1) grant and subgrant financial and project status reports are accurately
reported, (2) expenditures can be traced to a level that ensures that funds have not been used in

5
  OIG Management Report OIG 10-49, Opportunities to Improve FEMA’s Disaster Closeout Process, discusses 

several reasons for delays in the disaster closeout process. Grantee delays were attributed to staff shortages, 

inexperienced staff, conflicting priorities, and a need for closure incentives, which may result in not performing

final inspections and reconciliations of individual subgrantee projects when they are completed. 

6
  44 CFR 13.37(a)(2) and 44 CFR 13.40(a).




                                                          7

violation of applicable statutes, and (3) grantees and subgrantees adhere to the specific
provisions of applicable federal regulations when administering public assistance grants.

Conclusion
Grantees and subgrantees did not always properly account for and expend FEMA PA and HMGP
program funds. Federal regulations regarding grant administration require states, as grantees, to
oversee subgrant activities and ensure that subgrantees are aware of and follow federal regulations
designed to ensure that financially assisted activities are accomplished according to applicable
laws and regulations. However, many of our findings and reportable conditions indicate that
states should do a better job of educating subgrantees and enforcing federal regulations.

It is FEMA’s responsibility to hold states accountable for proper grant administration, especially
with regard to contracting practices. Although FEMA has the statutory and regulatory authority
to waive certain administrative requirements, it should not be standard practice to allow
noncompetitive and cost-plus-a-percentage-of-cost contracts even when the costs are reasonable
and for eligible work. Given the federal government’s trillion-dollar annual budget deficit, all
federal agencies need to minimize federal outlays whenever possible. FEMA should use the
remedies specified in federal regulations to (1) hold grantees and subgrantees accountable for
noncompliance with federal statutes and regulations and (2) demand that grantees and
subgrantees properly account for and expend FEMA funds. In addition, FEMA should consider
requesting states to (1) evaluate their capabilities to effectively administer FEMA PA and HMGP
grants, (2) identify gaps inhibiting effective grant and subgrant management and program and
project execution, and (3) identify opportunities for FEMA technical assistance such as training
and project monitoring. Finally, because PA and HMGP projects often take years to complete,
constant grantee monitoring is critical to ensure that subgrantees follow applicable laws,
regulations, and policies throughout the life of the projects.

This report provides a means for FEMA to (1) examine its regulations, policies, and procedures
and assess the need for changes based on the recurring nature of our findings and (2) inform state
emergency management officials (i.e., program grantees) of grant and subgrant activities that
should be avoided or implemented. Providing this report to PA and HMGP program grantees
will enable them to better ensure that subgrantees follow all laws, regulations, policies, and
procedures and properly account for and expend FEMA funds.




                                                8

Appendix A
FEMA Public Assistance and Hazard Mitigation Grant and Subgrant Audit Reports Issued in
FY 2011

                          FEMA Public Assistance and Hazard Mitigation 

                              Grant and Subgrant Audit Reports

                                       Issued in FY 2011


      Report       Disaster           Date
                                                                             Auditee
     Number       Number(s)          Issued
1    DA-11-01   1545, 1561, 1609    10/6/2010   City of West Palm Beach, Florida
2    DA-11-02         1602         10/19/2010   Miami-Dade County Public Schools
3    DA-11-03     1602, 1609       10/19/2010   Broward County School Board District
4    DA-11-04         1604          12/9/2010   Biloxi Public School District, Mississippi
5    DA-11-05         1650         12/17/2010   New York Department of Environmental Protection
6    DA-11-06         1604           1/5/2011   Harrison County, Mississippi, Hazard Mitigation Grant Program
7    DA-11-07   1501, 1552, 1798    1/12/2011   Puerto Rico Department of Transportation and Public Works
8    DA-11-08         1609          2/24/2011   Broward Sheriff’s Office – Disaster Activities Related to Hurricane
                                                Wilma
9    DA-11-09     1545, 1602        2/24/2011   Broward Sheriff’s Office – Disaster Activities Related to
                                                Hurricanes Frances and Katrina
10   DA-11-10        1604            3/7/2011   Beauvoir – Jefferson Davis Home and Presidential Library
11   DA-11-11        1551           3/14/2011   Emerald Coast Utilities Authority
12   DA-11-12        1604           4/11/2011   Mississippi State Port Authority
13   DA-11-13        1609           4/12/2011   City of Deerfield Beach, Florida
14   DA-11-14        1546           4/15/2011   North Carolina Department of Public Transportation - Disaster
                                                Activities Related to Tropical Storm Frances
15   DA-11-15        1553           4/15/2011   North Carolina Department of Public Transportation - Disaster
                                                Activities Related to Hurricane Ivan
16   DA-11-16       1604             5/3/2011   Coast Transit Authority
17   DA-11-17     1602, 1609         5/3/2011   Florida International University
     DA-11-18       1561            5/12/2011   City of Vero Beach, Florida – Disaster Activities Related to
18
                                                Hurricane Jeanne
19   DA-11-19        1545           5/12/2011   City of Vero Beach, Florida – Disaster Activities Related to
                                                Hurricane Frances
20   DA-11-20        1549            8/5/2011   Gulf Shores Utilities, Gulf Shores, Alabama
21   DA-11-21        1604           8/19/2011   Memorial Hospital at Gulfport, Mississippi
22   DA-11-22        1605           8/19/2011   City of Mobile, Alabama
23   DA-11-23        1604           8/26/2011   Gulf Coast Community Action Agency, Gulfport, Mississippi
24   DA-11-24        1604           9/15/2011   Wayne County, Mississippi, Board of Supervisors
25   DD-11-01        1379          10/28/2010   University of Texas, MD Anderson Cancer Center Hazard
                                                Mitigation Grant Program
26   DD-11-02        1603           12/9/2010   Lafon Nursing Facility of the Holy Family
27   DD-11-03        1603           12/9/2010   Town of Franklinton, Louisiana
28   DD-11-04        1603          12/10/2010   Town of Abita Springs, Louisiana
29   DD-11-05        1791          12/13/2011   Chambers County, Texas
30   DD-11-06        1676           1/14/2011   City of Springfield, Missouri
31   DD-11-07        1607           1/27/2011   Chennault International Airport Authority, Lake Charles, Louisiana
32   DD-11-08        1603            2/3/2011   City of Slidell, Louisiana
33   DD-11-09        1603           2/16/2011   Tangipahoa Parish, Louisiana
34   DD-11-10        1606            3/8/2011   City of Port Arthur, Texas
35   DD-11-11        1603           3/17/2011   Roman Catholic Church of the Archdiocese of New Orleans
                                                Funding of Permanent Work
36   DD-11-12        1603            4/4/2011   Xavier University of Louisiana
37   DD-11-13     1606, 1624        4/20/2011   City of Austin, Texas, Hazard Mitigation Grant Program
38   DD-11-14        1580           4/26/2011   South Central Power Company, Ohio



                                                     9

Appendix A
FEMA Public Assistance and Hazard Mitigation Grant and Subgrant Audit Reports Issued in
FY 2011


                        FEMA Public Assistance and Hazard Mitigation 

                            Grant and Subgrant Audit Reports

                                     Issued in FY 2011


      Report     Disaster     Date
                                                                      Auditee
      Number    Number(s)    Issued
39   DD-11-15     1603        8/5/2011   Saint Mary’s Academy, New Orleans, Louisiana
40   DD-11-16     1603        8/9/2011   Regional Transit Authority, New Orleans, Louisiana
41   DD-11-18     1688       8/23/2011   Iowa Department of Transportation
42   DD-11-19     1603       8/24/2011   Port of New Orleans, Louisiana
43   DD-11-20     1607        9/2/2011   Calcasieu Parish School Board, Lake Charles, Louisiana
44   DD-11-21     1603       9/26/2011   Jesuit High School, New Orleans, Louisiana
45   DD-11-22     1771       9/27/2011   Henderson County, Illinois
46   DD-11-24     1603       9/27/2011   Orleans Parish Criminal Sheriff’s Office, Louisiana
47   DS-11-02     1577      12/30/2010   City of Malibu, California
48   DS-11-03     1577      12/30/2010   County of Ventura, California
49   DS-11-04     1577       1/13/2011   County of Santa Barbara, California
50   DS-11-05     1630       1/14/2011   Idaho Military Department’s Bureau of Homeland Security
51   DS-11-06     1731        3/2/2011   California Department of Forestry and Fire Protection
52   DS-11-07     1628        3/2/2011   County of Sonoma, California
53   DS-11-08     1628       3/21/2011   Lake County, California
54   DS-11-09     1628       7/22/2011   Reclamation District 768, Arcata, California
55   DS-11-10     1628        8/2/2011   County of Humboldt, California
56   DS-11-11     1628        9/2/2011   City of Petaluma, California
57   DS-11-12     1505       9/13/2011   City of Paso Robles, California
58   DS-11-13     1646       9/27/2011   County of Sonoma, California

Note: The following audits addressed findings from previous fiscal years and were excluded from
this report:

     DD-11-17    Capping Report: FY 2010 FEMA Public Assistance Grant and Subgrant Audits
     DD-11-23    FEMA Region VI Audit Follow-up and Resolution Activities
     DS-11-01    Capping Report: FY 2009 FEMA Public Assistance Grant and Subgrant Audits

Copies of the audit reports issued in FY 2011 are available at
http://www.oig.dhs.gov/index.php?option=com_content&view=article&id=63&Itemid=33.




                                                  10

Appendix B
Major Contributors to this Report


                    Tonda Hadley, Director
                    Christopher Dodd, Supervisory Auditor
                    Brandon Landry, Program Analyst




                                             11

Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      FEMA Audit Liaison
                      Director, Risk Management and Compliance, FEMA Office of Chief
                      Financial Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Committee on Homeland Security and Governmental Affairs, United States
                      Senate

                      Committee on Appropriations, Subcommittee on Homeland Security, United
                      States Senate

                      Committee on Homeland Security
                      U.S. House of Representatives

                      Committee on Transportation
                      U.S. House of Representatives

                      Committee on Appropriations
                      Subcommittee on Homeland Security
                      U.S. House of Representatives




                                               12

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
